     NATIONAL CREDIT UNION ADMINISTRATION
         OFFICE OF INSPECTOR GENERAL



                            OIG EVALUATION
                       GOVERNMENT INFORMATION
                         SECURITY REFORM ACT
                                  2001

                   Report #OIG-01-09          September 7, 2001




                                   Frank Thomas
                                  Inspector General

            Released by:                              Auditor in Charge:
        William A. DeSarno                             Tammy F. Rapp
Assistant Inspector General for Audits                Senior IT Auditor
                   NATIONAL CREDIT UNION ADMINISTRATION
                 OFFICE OF INSPECTOR GENERAL EVALUATION
               GOVERNMENT INFORMATION SECURITY REFORM ACT
                                   2001


                                  EXECUTIVE SUMMARY


The Government Information Security Reform Act (GISRA), Public Law 106-398, requires
Inspectors General (IG) to perform independent evaluations to:
    • Assess compliance with GISRA and agency security policies and procedures; and
    • Test effectiveness of information security control techniques for a subset of the
        agency’s information systems.

The Office of Management and Budget (OMB) has requested IGs to submit the results of their
independent evaluation by responding specifically to questions 2 through 13 of OMB
Memorandum M-01-24. The following presents our evaluation of the National Credit Union
Administration’s (NCUA) compliance with GISRA.

The NCUA Office of Inspector General (OIG) has determined that NCUA is not yet in
compliance with GISRA. The following represents the agency’s status toward compliance with
key GISRA provisions as of August 2001:

   •   NCUA needs to develop an agency-wide security program. NCUA developed a draft
       security policy that will be incorporated in the security program. However this policy has
       not been approved by the agency head or disseminated to personnel with key
       responsibilities.
   •   NCUA needs to perform formal risk assessments.
   •   NCUA program managers need to perform periodic management testing of controls and
       perform their annual program review as required by GISRA.
   •   For the reporting cycle, NCUA has provided some security training to personnel with
       significant security responsibilities, and security awareness training is provided to all
       employees on a 3-year cycle coinciding with equipment replacement. New examiners
       are provided with basic computer training, which includes security awareness.
       Contractors and new non-examiner personnel are not provided any security awareness
       training.
   •   NCUA needs to formalize an incident response program.
   •   NCUA’s Office of the Chief Information Officer (OCIO) needs to perform the annual
       security program review required by GISRA.
   •   NCUA has not yet determined the resources required to implement the security program
       and incorporate this program in the budget and strategic planning process.

Although we concluded that the agency is not in compliance with GISRA, we have not opined
on actual security measures in place at the agency. According to the Chief Information Officer
(CIO), NCUA has taken several steps to provide a secure environment, and as a result NCUA
has not become aware of any significant security breaches. Some examples of proactive
security practices include: matching risk to security controls; building controls into applications
during development; and moving forward with new technologies that have increased security.




                                               1
                  NATIONAL CREDIT UNION ADMINISTRATION
                OFFICE OF INSPECTOR GENERAL EVALUATION
              GOVERNMENT INFORMATION SECURITY REFORM ACT
                                  2001

The NCUA OIG with assistance from independent public accounting firms performed two audits
during the reporting cycle that tested the effectiveness of information security and internal
controls:

   •   On March 15, 2001, the OIG issued a report on our review of SAP Security & Control.
       SAP is used by NCUA to primarily perform online payment and accounting of agency
       financial transactions. The purpose of our review was to assess controls in the following
       areas: SAP Security; Data Integrity; Information Technology (IT) Infrastructure; and
       Business Processes. Our review included inquiry of personnel, observation of
       operations, and performance of tests within SAP. Our review identified several internal
       control weaknesses in the SAP security configuration. The most significant findings
       were related to segregation of duties and inappropriate user access privileges. NCUA’s
       consolidated response to the 42 recommendations was positive, and NCUA stated all of
       the recommendations were either implemented or agreed to.

   •   On March 31, 2001, the OIG issued the Financial Statement Audit Report for the year
       ended December 31, 2000. The purpose of this audit was to express an opinion on
       whether the financial statements were fairly presented. In addition, the contractor
       reviewed the internal control structure and evaluated compliance with laws and
       regulations as part of the audit. The independent public accounting firm expressed
       unqualified opinions, stating that the financial statements were presented fairly.
       Although the independent public accounting firm did not find any matters considered to
       be material weaknesses in their review of the internal control structures pertinent to final
       reporting, they made six recommendations relating to weaknesses identified in the area
       of information security. NCUA agreed to implement all of the recommendations.




                                              2
                   NATIONAL CREDIT UNION ADMINISTRATION
                 OFFICE OF INSPECTOR GENERAL EVALUATION
               GOVERNMENT INFORMATION SECURITY REFORM ACT
                                   2001

 OBJECTIVES, SCOPE,
 AND METHODOLOGY


OBJECTIVES:

The objectives of our review were to:

    •   Assess compliance with GISRA and agency security policies and procedures;
    •   Provide a synopsis of recent audits where tests of information security control
        techniques were performed for a subset of the agency’s information systems; and
    •   Provide OMB with the results of our independent evaluation and specific evaluation of
        questions 2 through 13 of M-01-24.


SCOPE AND METHODOLOGY:

We reviewed the provisions of GISRA and associated OMB guidance. Our review procedures
included inquiry of personnel with responsibilities associated with GISRA and some document
review. We also reviewed the CIO’s draft response to OMB’s 01-24 dated August 31, 2001.

Our review focused on the agency’s overall security framework, and we did not conclude on
actual security measures in place.

This review was conducted at NCUA’s Central Office in Alexandria, Virginia, during August 2001
and covered the period from January 2001 through August 2001.




                                            3
                  NATIONAL CREDIT UNION ADMINISTRATION
                OFFICE OF INSPECTOR GENERAL EVALUATION
              GOVERNMENT INFORMATION SECURITY REFORM ACT
                                  2001

 OMB QUESTIONS 2 - 13

In specific response to OMB’s Memorandum M-01-24, the OIG’s evaluation of questions 2
through 13 is presented below:

2. Identify the total number of programs included in the program reviews or independent
   evaluations.

   NCUA has not identified programs for this purpose. However, NCUA identified seven
   mission critical systems. The agency should consider including other critical systems that
   are maintained by other agencies such as the agency’s personnel processing system,
   payroll system, time and attendance system, disbursement system, etc. In addition, the
   agency needs to ensure that all critical systems have a program manager assigned with the
   responsibility for each system.

   The agency did not perform any program reviews during this reporting cycle. The OIG
   performed two independent evaluations that included information security and internal
   controls during this reporting period: SAP Security Review and 2000 Financial Statement
   Audits. Both independent evaluations included NCUA’s core financial system, which is one
   of the agency’s mission critical systems.

3. Describe the methodology used in the program reviews and the methodology used in the
   independent evaluations.

       a. SAP Security Review
            The overall objective of the SAP Security Review was to ensure that the existing
            control environment and security infrastructure of the SAP system was adequate.
            The review included assessment of controls in the areas of SAP security, data
            integrity, information technology infrastructure, and business processes
            surrounding the SAP modules. Review procedures included inquiry of personnel,
            observation of operations, and performance of tests within SAP.

       b. 2000 Financial Statement Audits
             The purpose of the financial statement audits was to express an opinion on
             whether the financial statements were fairly presented. In addition, the internal
             control structure and compliance with laws and regulations were evaluated. The
             audit procedures included inquiry of personnel, review of policies and
             procedures, observation of operations, and limited testing of information
             technology controls.

4. Report any material weakness in policies, procedures, or practices as identified and
   required to be reported under existing law.

   Although no material weaknesses were reported under existing law, our review of the
   financial system revealed many significant security weaknesses. According to agency
   officials, these weaknesses have been addressed. As a result of this evaluation, we
   observed material weaknesses and made several recommendations regarding the agency’s




                                             4
                   NATIONAL CREDIT UNION ADMINISTRATION
                 OFFICE OF INSPECTOR GENERAL EVALUATION
               GOVERNMENT INFORMATION SECURITY REFORM ACT
                                   2001

   overall information security framework. The OIG plans to perform a follow-up review of all
   security related recommendations during the next reporting cycle.

5. Describe the specific measures of performance used by the agency to ensure that agency
   program officials have: 1) assessed the risk to operations and assets under their control; 2)
   determined the level of security appropriate to protect such operations and assets; 3)
   maintained an up-to-date security plan (that is practiced throughout the life cycle) for each
   system supporting the operations and assets under their control; and 4) tested and
   evaluated security controls and techniques. Include information on the actual performance
   for each of the four categories.

       a. Although the annual appraisal process is a tool used by the Office of the Executive
          Director (OED) to ensure managers fulfill their responsibilities, there were no specific
          measures of performance to ensure that agency program officials have performed
          the following:
              • Assessed the risk to operations and assets under their control;
              • Determined the level of security appropriate to protect such operations and
                   assets;
              • Maintained an up-to date security plan for each system supporting the
                   operations and assets under their control; and
              • Periodically tested and evaluated security controls and techniques.

       b. NCUA program officials:
            • Have not performed any formal risk assessments for operations and assets
               under their control;
            • Although it appears that program officials participate in determining some
               level of security and controls over their respective operations, this process is
               informal and undocumented. The OIG was unable to determine if their
               determination of controls was based on an evaluation of the risks to
               information systems and data and the costs of implementing specific controls;
            • Have not developed a security plan for each system supporting the
               operations and assets under their control; and
            • Have not periodically tested and evaluated security controls and techniques
               for systems under their control.

6. Describe the specific measures of performance used by the agency to ensure that the
   agency CIO: 1) adequately maintains an agency-wide security program; 2) ensures the
   effective implementation of the program and evaluates the performance of major agency
   components; and 3) ensures the training of agency employees with significant security
   responsibilities. Include information on the actual performance for each of the three
   categories.

       a. Although the annual appraisal process is a tool used by OED to ensure managers
           fulfill their responsibilities, there were no specific measures of performance to ensure
           that the agency CIO:
                • Adequately maintains an agency-wide security program;
               •


                                              5
                   NATIONAL CREDIT UNION ADMINISTRATION
                 OFFICE OF INSPECTOR GENERAL EVALUATION
               GOVERNMENT INFORMATION SECURITY REFORM ACT
                                   2001

               •   Ensures the effective implementation of the program and evaluates the
                   performance of major agency components; and
               •   Ensures the training of agency employees with significant security
                   responsibilities.

       b. The CIO:
             • Recently assigned the role of senior information security official to a senior
                   information technology specialist as part of his ancillary responsibilities;
               •   Has not developed an agency-wide security program or ensured the effective
                   implementation of the program and evaluated the performance of major
                   agency components;
               •   Has ensured the training of agency employees with significant security
                   responsibilities.

7. Describe how the agency ensures that employees are sufficiently trained in their security
   responsibilities. Identify the total number of agency employees and briefly describe what
   types of security training was available during the reporting period, the number of agency
   employees that received each type of training, and the total costs of providing such training.

   NCUA provided security training to all employees in conjunction with its notebook computer
   replacement in Spring 2000. New examiners are provided with basic security training when
   they are provided with their equipment. However, new non-examiner employees and
   contractors with access to NCUA’s information technology resources do not receive any
   security training. NCUA should consider providing periodic security awareness updates to
   all employees and contractors.

8. Describe the agency’s documented procedures for reporting security incidents and sharing
   information regarding common vulnerabilities. Include a description of procedures for
   external reporting to law enforcement authorities and to the General Services
   Administration’s Fed CIRC. Include information on the actual performance and the number
   of incidents reported.

   NCUA does not have documented procedures for reporting security incidents and sharing
   information regarding common vulnerabilities. NCUA’s security incident process is informal
   and undocumented.

9. Describe how the agency integrates security into its capital planning and investment control
   process. Were security requirements and costs reported on every FY02 capital asset plan
   (as well as exhibit 53) submitted by the agency to OMB? If no, why not?

   Although NCUA is not required to complete a capital asset plan with its budget submission
   to OMB, NCUA intends to incorporate security with its strategic plan and enterprise
   architecture. NCUA has not taken any steps to ensure that plans to fund and manage
   security are built into life-cycle budgets for information systems.




                                              6
                   NATIONAL CREDIT UNION ADMINISTRATION
                 OFFICE OF INSPECTOR GENERAL EVALUATION
               GOVERNMENT INFORMATION SECURITY REFORM ACT
                                   2001

10. Describe the specific methodology used by the agency to identify, prioritize, and protect
    critical assets within its enterprise architecture, including links with key external systems.
    Describe how the methodology has been implemented.

   NCUA plans to complete its enterprise architecture by June 30, 2002.

11. Describe the measures of performance used by the head of the agency to ensure that the
    agency’s information security plan is practiced throughout the life cycle of each agency
    system. Include information on the actual performance.

       a. Specific measures of performance have not been identified to ensure that the
           agency’s information security plan is practiced throughout the life cycle of each
           agency system.

       b. NCUA informally incorporated information security throughout the life cycle of each
           agency system.

12. Describe how the agency has integrated its information and information technology security
    program with its critical infrastructure protection responsibilities, and other security programs
    (e.g., physical and operational).

   NCUA intends to integrate all of its security responsibilities when it develops the agency-
   wide information technology security program.

13. Describe the specific methods (e.g., audits or inspections) used by the agency to ensure
    that contractor provided services (e.g., network or website operations) or services provided
    by another agency are adequately secure and meet the requirements of the Security Act,
    OMB policy and NIST guidance, national security policy, and agency policy.

       a. NCUA utilizes agency employees to informally monitor contractors that supplement
           NCUA’s information technology staff.

       b. NCUA has not performed any steps to ensure that services provided by another
           agency are adequately secure and meet the requirements of the Security Act, OMB
           policy and NIST guidance, national security policy, and agency policy.




                                                7
                  NATIONAL CREDIT UNION ADMINISTRATION
                OFFICE OF INSPECTOR GENERAL EVALUATION
              GOVERNMENT INFORMATION SECURITY REFORM ACT
                                  2001

 RECOMMENDATIONS


In order to comply with GISRA:

   1. The Executive Director should develop specific performance measures to ensure that a
      successful security program is developed, maintained, and implemented throughout the
      agency.

   2. The Executive Director should develop specific performance measures to ensure that
      senior program managers have:
         a. Assessed the risk to operations and assets under their control;
         b. Determined the level of security appropriate to protect such operations and
              assets;
         c. Maintained an up-to-date security plan for each system supporting the operations
              and assets under their control; and
         d. Periodically tested and evaluated security controls and techniques.

   3. The Executive Director should develop specific performance measures to ensure that
      the CIO:
          a. Adequately maintains an agency-wide security program;
          b. Ensures the effective implementation of the program and evaluates the
             performance of major agency components; and
          c. Ensures the training of agency employees with significant security
             responsibilities.

   4. The Executive Director should ensure that the agency has trained all personnel sufficient
      to assist the agency in complying with the requirements of GISRA and related agency
      security policies and procedures.

   5. The Executive Director should develop specific performance measures to ensure that
      the CIO and senior program managers:
          a. Annually evaluate the effectiveness of the agency information security program,
             including testing control techniques, and implement appropriate remedial actions
             based on the evaluation; and
          b. Report the results of such tests and evaluations and progress made on remedial
             actions.

   6. The Executive Director should evaluate the resources required to implement the security
      program and consider such resources in the annual budgeting and strategic planning
      process.

   7. The Executive Director should ensure that security is incorporated with its strategic plan
      and enterprise architecture.

   8. The CIO should develop and maintain an agency-wide security program that integrates
      all of NCUA’s security responsibilities and includes the following elements:



                                             8
                   NATIONAL CREDIT UNION ADMINISTRATION
                 OFFICE OF INSPECTOR GENERAL EVALUATION
               GOVERNMENT INFORMATION SECURITY REFORM ACT
                                   2001

           a. Periodic risk assessments that consider internal and external threats to the
              integrity, confidentiality, and availability of systems and data;
           b. Policies and procedures that are based on risk assessments that cost effectively
              reduce information security risks to an acceptable level;
           c. Periodic security awareness training to inform and remind all employees,
              contractors, and other users of agency systems of their information security risks
              and respective security responsibilities;
           d. Periodic management testing and evaluation of the effectiveness of information
              security policies and procedures;
           e. A process for ensuring remedial action to address any significant deficiencies;
              and
           f. Procedures for detecting, reporting, and responding to security incidents.

   9. The CIO should ensure that the agency effectively implements and maintains
      information security policies, procedures, and control techniques.

   10. The CIO should propose through the agency budget process that the senior information
       security official is given adequate resources to perform security related responsibilities.

   11. The CIO should perform an annual evaluation of the agency-wide security program.

   12. The CIO should develop specific methods to ensure the adequate security of contractor
       provided services.

   13. Senior program managers should assess the information security risks associated with
       the operations and assets for programs and systems over which they have control.
       These risk assessments should be documented and periodically reevaluated.

   14. Senior program managers should determine the levels of information security
       appropriate to protect operations and assets under their control. These control
       assessments should be documented and periodically reevaluated.

   15. Senior program managers should periodically test and evaluate information security
       controls and techniques, as well as perform an annual program review in consultation
       with the CIO.

   16. Senior program managers should develop a security plan for each system supporting
       the operations and assets under their control.

   17. Senior program managers should develop specific methods to ensure that information
       technology services provided by other agencies are adequately secure.

   18. The CIO should assist the senior program managers with their responsibilities outlined
       above.

The initial response we received from the Office of the Executive Director indicated they
generally agreed with all of the above recommendations.




                                              9
                  NATIONAL CREDIT UNION ADMINISTRATION
                OFFICE OF INSPECTOR GENERAL EVALUATION
              GOVERNMENT INFORMATION SECURITY REFORM ACT
                                  2001

 ATTACHMENTS

Exhibit 1: SAP Security Audit
               (Executive Summary)
Exhibit 2: Financial Statement Audit 2000
               (Executive Summary and Observations and Recommendations)

(Attachments transmitted separately.)




                                        10
